No. 19-462
In the

Supreme Court of the United States
A TOP NEW CASTING, INCORPORATED,
Petitioner,
v.
BODUM USA, INCORPORATED,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF IN OPPOSITION

Nicole J. Wing, Esq.
Counsel of Record
Vedder Price P.C.
222 North LaSalle Street
Chicago, Illinois 60601
(312) 609-7500
nwing@vedderprice.com
Counsel for Respondent

292365

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED FOR REVIEW
Whether the Seventh Circuit Court of Appeals
properly affirmed a jury’s verdict in favor of Bodum
USA, Inc., and against A Top New Casting, Inc., when
the evidence before the jury was sufficient to show that
the aesthetic design of the CHAMBORD® French press
coffee maker was not functional under the parameters
established by this Court.

ii
PARTIES TO THE PROCEEDING
Respondent Bodum USA, Inc. (“Bodum”) is a
Delaware corporation. Petitioner A Top New Casting, Inc.
(“A Top” or “Petitioner”), at the time of trial, was a New
York corporation.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of the Supreme
Court of the United States, Respondent makes the
following disclosure:
Respondent has a parent corporation, Bodum Holding
AG. No publicly held company owns 10% or more of
Respondent’s stock.

iv
PROCEEDINGS BELOW
Bodum USA, Inc. v. A Top New Casting, Inc., No. 16
C 2916, United States District Court for the Northern
District of Illinois, Eastern Division. Judgment Entered
June 6, 2018.
Bodum USA, Inc. v. A Top New Casting Inc., No.
18-3020, United States Court of Appeals for the Seventh
Circuit. Judgment Entered June 12, 2019.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
PROCEEDINGS BELOW . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING THE PETITION  . . . . . . 3
I.

THE DECISION BELOW DID NOT
CONFLICT W ITH ESTA BLISHED
SUPREME COURT PRECEDENT  . . . . . . . . . 4

II. THERE IS NO CONFLICT BETWEEN
THE SEVENTH AND NINTH CIRCUITS  . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vi
TABLE OF CITED AUTHORITIES
Page
CASES
Apple Inc. v. Samsung Elecs. Co.,
786 F.3d 983 (9th Cir. 2015) . . . . . . . . . . . . . . . . passim
Bodum USA, Inc. v. A Top New Casting Inc.,
927 F.3d 486 (7th Cir. 2019)  . . . . . . . . . . . . . . . . passim
Brooke Grp. v.
Brown & Williamson Tobacco Corp.,
509 U.S. 209 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Cavazo v. Smith,
132 S. Ct. 2 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Easley v. Cromartie,
532 U.S. 234 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ross v. Moffit,
417 U.S. 600 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . .13
TrafFix Devices v. Mktg. Displays,
532 U.S. 23 (2001) . . . . . . . . . . . . . . . . . . . . . . . . passim
AUTHORITIES
Fed. R. Civ. P. 50  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 59  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Sup. Ct. R. 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
STATEMENT OF THE CASE
The Seventh Circuit’s unanimous decision to affirm
a jury’s verdict and the district court’s rulings on posttrial motions protecting Bodum’s trade dress rights in the
CHAMBORD® French press coffee maker was proper
and does not warrant further review by this Court.
Petitioner asks this Court to grant certiorari for two
reasons: the Seventh Circuit did not apply the standard
for determining functionality established by this Court
in TrafFix, and its decision creates a circuit split with
the Ninth Circuit’s holding in Apple. Neither of these
arguments has merit. The Seventh Circuit properly
applied TrafFix to this case, and correctly distinguished
the facts in this case from those in Apple. Petitioner uses
these arguments as a guise for its true purpose in seeking
review from this Court; it aims to have this Court review
the merits of the evidence that was before the jury, and
reach a different result. Because there is nothing for
this Court to review in regards to the Seventh Circuit’s
proper application of TrafFix, and its alignment with the
reasoning used in Apple, the Petition should be denied.
Bodum is the leading seller of distinctive specialty
houseware products, including its coffee and tea makers.
For nearly three decades, Bodum has had the exclusive
rights to distribute the CHAMBORD®, which is widely
known as an iconically designed houseware product.
Bodum has spent millions of dollars promoting the
CHAMBORD®, which has been recognized as classic
by various institutions. Protecting its CHAMBORD®
design is paramount to Bodum, and Bodum has expended
extensive effort into policing any infringing products.

2
In 2014, Petitioner began selling a confusingly
similar competing French press coffee maker called the
SterlingPro through Amazon. In response, Bodum filed
suit against Petitioner in the Northern District of Illinois
for, in relevant part, trade dress infringement under the
Lanham Act. The case was tried before a jury, which
found in favor of Bodum. The jury held that Petitioner
willfully infringed Bodum’s CHAMBORD® trade dress.
Petitioner moved for judgment as a matter of law under
Fed. R. Civ. P. 50, and for a new trial under Rule 59. The
court denied both of these motions, and granted Bodum’s
motion for enhanced damages. The court also granted
Bodum’s request for a permanent injunction preventing
Petitioner from continuing to sell its infringing French
presses.
Petitioner appealed to the United States Court of
Appeals for the Seventh Circuit. Petitioner did not deny
that it copied the CHAMBORD® design—the products’
similarity is undeniable. A Top argued only that the
claimed trade dress elements on the CHAMBORD®
French press were functional, which would deny a product
trade dress protection. Bodum argued that the product
did not need to look like the CHAMBORD® to serve the
purpose of making a cup of coffee, strongly evidenced by
the dozens of different ways French press coffee makers
are designed. The Seventh Circuit agreed with Bodum and
found that A Top confused the concept of something having
a use (e.g., the product’s handle) and being functional,
as that term is used in trade dress law. In making this
determination, the Seventh Circuit concluded that Bodum
presented sufficient evidence for the jury to have found
that Bodum’s claimed trade dress was nonfunctional.

3
REASONS FOR DENYING THE PETITION
The Seventh Circuit’s decision to affirm the jury’s
finding of protectable trade dress applied the decision of
this Court in TrafFix—it did not conflict with or erode
that decision. The Seventh Circuit’s decision also does
not conflict with the Ninth Circuit’s holding in Apple; the
Bodum and Apple cases merely presented distinguishable
facts that warranted different conclusions after application
of well-established trademark law. The Seventh Circuit
correctly held that Bodum presented enough evidence to
satisfy the standard set in TrafFix, whereby a plaintiff
must prove non-functionality by demonstrating that a
particular feature or set of features does not affect the
cost or quality of a product. In particular, the Seventh
Circuit noted that Bodum (unlike Apple) had presented
evidence that the CHAMBORD® design is not used
because of a cost or quality advantage, and the design
elements that comprise its trade dress are not relatively
simple or inexpensive to manufacture. The Seventh
Circuit specifically called out multiple pieces of evidence
that met the TrafFix legal standard, as addressed below.
This is application of TrafFix to the facts of this case, not
a rewriting of TrafFix. Petitioner is merely asking for a
review of the merits of the evidence that was before the
jury. This is not the function of this Court and, therefore,
review by this Court is unwarranted. The Petition should
be denied.

4
I.
THE DECISION BELOW DID NOT CONFLICT
WITH ESTABLISHED SUPREME COURT
PRECEDENT
This is a Lanham Act case that involved application
of United States Supreme Court precedent that was
established nearly 20 years ago—the standards for nonfunctionality in trademark law. Supreme Court Rule 10
provides as follows:
Review on a writ of certiorari is not a matter
of right, but of judicial discretion. A petition
for a writ of certiorari will be granted only for
compelling reasons. The following, although
neither controlling nor fully measuring the
Court’s discretion, indicate the character of the
reasons the Court considers:
***
(c) a state court or a United States court of
appeals has decided an important question
of federal law that has not been, but should
be, settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
A petition for a writ of certiorari is rarely
granted when the asserted error consists of
erroneous factual findings or the misapplication
of a properly stated rule of law.
Sup. Ct. R. 10.

5
The Petition flies in the face of Rule 10. Petitioner’s
first argument is that the Seventh Circuit ignored or
misapplied TrafFix. Petitioner does not argue that there
is an important question of federal law that needs to
be settled. The law is long-settled. TrafFix established
that in evaluating whether trade dress is functional, a
court should determine whether the trade dress at issue
“is essential to the use or purpose of the article or if it
affects the cost or quality of the article.” TrafFix Devices
v. Mktg. Displays, 532 U.S. 23, 32 (2001). New standards
for non-functionality are not necessary or appropriate.
The Seventh Circuit had the appropriate standards before
it. Indeed, the Seventh Circuit stated the law as follows:
The Supreme Court has explained that “a
product feature is functional,” and cannot serve
as a trademark, “if it is essential to the use or
purpose of the article or if it affects the cost
or quality of the article.” Even if a claimed
trade dress does not satisfy this first test, “it
can still be functional if it is a ‘competitive
necessity,’ that is, if its exclusive use ‘would
put competitors at a significant non-reputationrelated disadvantage.’” Where as here, the
claimed trade dress is unregistered, it is the
burden of the party asserting protection to
prove that the trade dress is not functional.
In deciding whether a trade dress element
is functional, we consider several factors:
(1) the existence of a utility patent, expired
or unexpired, that involves or describes the
functionality of an item’s design element; (2) the
utilitarian properties of the item’s unpatented

6
design elements; (3) advertising of the item that
touts the utilitarian advantages of the item’s
design elements; (4) the dearth of, or difficulty
creating, alternative designs for the item’s
purpose; (5) the effect of the design feature on
an item’s quality or cost.
No one factor is dispositive.
Bodum USA, Inc. v. A Top New Casting Inc., 927 F.3d
486, 491-92 (7th Cir. 2019).
Applying this law, the Seventh Circuit found that
Bodum had met its burden.
Rather than arguing in the Petition that new law needs
to be established or a conflict with prior law resolved,
Petitioner essentially argues that Bodum’s evidence was
not enough to meet the legal standards. Specifically,
Petitioner states that “there was no proof in the record
that the design itself—as opposed to the materials used
to produce the product—was not the simplest or least
expensive to produce.” (Pet. App. 6.) Petitioner goes on to
state further that “the only evidence in the record was the
total cost of the Chambord, produced with its expensive
glass and chrome plated metal . . . there was no proof in
the record that the Chambord was not the cheapest design
to produce, independent of its materials.” (Id.) Deciding
sufficiency of the trial evidence is not customary for this
Court. Brooke Grp. v. Brown & Williamson Tobacco
Corp., 509 U.S. 209, 230 (1993).
In any event, even the most cursory review of the
Seventh Circuit’s analysis proves Petitioner’s contentions
untrue. The Seventh Circuit specifically noted:

7
Bodum presented sufficient evidence from
which a jury could conclude that the Chambord’s
design conferred no cost or quality advantage
that made it functional. Bodum’s expert,
Mr. Anders, testified the Chambord design
was “complex” and that there are “simpler
ways of doing this.” He explained the more
complex the structure, the more expensive the
product is to manufacture, so he disagreed
with A Top’s expert that the Chambord was
the least expensive method to manufacture a
French press. Mr. Anders also explained that
plastic is generally cheaper to use than metal
in manufacturing, so plastic-framed French
presses would be cheaper to manufacture than
the metal-framed Chambord.
Joergen Bodum further supported Mr. Anders’s
opinion in his testimony regarding the many
different French presses Bodum produces.
For example, Bodum’s “Bistro” French press
does not have a metal frame, a domed lid, or a
C-shaped handle. Mr. Bodum testified that the
Bistro is less expensive to produce (“maybe less
than half of what it costs to make a Chambord”)
and less time-consuming to produce because
it requires less material than the Chambord.
Although the Bistro was a successful first
product for the company, Mr. Bodum testified
he decided to produce the Chambord, a more
complex and expensive product, in addition
to the Bistro because he was interested in
its iconic French design. Mr. Bodum also
discussed the manufacturing costs to produce

8
Bodum’s various French press coffeemakers.
He explained that the Chambord is neither the
cheapest nor the most expensive French press
Bodum sells. Thus, Mr. Bodum’s testimony
supported that the Chambord’s overall design
conferred no particular cost advantage that
made it functional.
Indeed, Jian Liang, A Top’s CEO, testified
that A Top produces another French press
with a plastic frame that is less expensive
than the metal SterlingPro. This testimony
further demonstrates that the Chambord’s
design does not provide a cost advantage.
Contrary to A Top’s argument, Bodum provided
evidence sufficient for the jury to conclude
that the Chambord’s appearance is costlier
to manufacture than to design around, which
supports that the Chambord trade dress is not
functional.
Bodum, 927 F.3d at 494-95.
The Seventh Circuit also pointed to evidence showing
that the design Bodum claims trade dress over includes
materials that are more expensive than necessary
to create a functioning French press. Id. at 493-94.
Petitioner’s assertion that “there was no proof in the
record that the design itself—as opposed to the materials
used to produce the product—was not the simplest or
least expensive to produce” is unsupported and baseless.
(Pet. App. 6.) The Seventh Circuit specifically highlighted
the CHAMBORD®’s complex design, how costly it is to
manufacture and its composition of expensive materials

9
that are not necessary to create a functioning French
press. Even Petitioner’s CEO conceded that Petitioner
produces another French press that is cheaper than its
model at the center of this case. These are all facts that
go beyond just the materials used to make the French
press, and point to non-functionality under the TrafFix
standards.
The Seventh Circuit did not disregard TrafFix
and create its own law, like the Petition suggests it did.
Petitioner maintains that the District Court erred “when
it required no proof that the design did not confer a
cost or quality advantage and was not the cheapest way
to manufacture the Chambord.” (Pet. App. 6.) Yet, the
Seventh Circuit specifically addressed Bodum’s burden
to prove that its design did not confer a cost or quality
advantage when it stated that Bodum “merely needed
to prove that preventing competitors from copying the
Chambord’s particular design would not significantly
disadvantage them from producing a competitive and costefficient French press coffeemaker.” Bodum, 927 F.3d at
492. Bodum was required to prove that its design did not
confer a cost advantage, and the court held that it met that
burden. See id. at 494 n.4 (“The Chambord design [does]
not confer any particular cost or quality advantage for
the product.”). The court applied the law, and Petitioner
disagrees with that application. But, the role of this
Court is not to review the merits of the underlying case.
Cavazo v. Smith, 132 S. Ct. 2, 9 (2011) (“Error correction
is outside the mainstream of the Court’s functions.”)
(Alito, J., concurring) (citation omitted). The question
before the Court is whether there is a question or conflict
that needs to be decided—and the answer to that question
is “no.”

10
II.
THERE IS NO CONFLICT BETWEEN THE
SEVENTH AND NINTH CIRCUITS
Petitioner’s second effort to shoehorn this case into the
category of decisions worthy of review is to manufacture
a circuit split that does not exist. Supreme Court Rule
10 contemplates consideration of a situation in which “a
United States court of appeals has entered a decision in
conflict with the decision of another United States court
of appeals on the same important matter; has decided an
important federal question in a way that conflicts with
a decision by a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s supervisory
power.” Sup. Ct. R. 10(a). This is not the present situation.
Both the Seventh Circuit in Bodum and the Ninth Circuit
in Apple applied the Supreme Court precedent in TrafFix.
As courts often do, they came to different results because
of distinguishable facts.
In Apple, the Ninth Circuit was tasked w ith
determining whether a jury’s finding that Samsung was
liable for the likely dilution of Apple’s iPhone trade dresses
under the Lanham Act was proper. Apple Inc. v. Samsung
Elecs. Co., 786 F.3d 983, 990 (9th Cir. 2015). Apple claimed
that various elements of its iPhone 3G and 3GS products,
including their rectangular shape, flat, clear surface,
display screen, substantial black borders and display
features were nonfunctional and, therefore, protectable
as unregistered trade dress. Id. at 992. Relevant to
this case, Apple argued that the design resulted from

11
a comparatively simple or inexpensive method of
manufacture. Id. Specifically, Apple contended that “‘[t]he
iPhone design did not result from a “comparatively simple
or inexpensive method of manufacture” because Apple
experienced manufacturing challenges.’” Id. at 994. The
Ninth Circuit, in reversing the jury’s finding of protectable
trade dress, held that the “manufacturing challenges,
however, resulted from the durability considerations for
the iPhone and not from the design of the unregistered
trade dress.” Id. That is, “the durability advantages that
resulted from the manufacturing challenges . . . [were]
outside the scope of what Apple defines as its unregistered
trade dress.” Id. Because any complexity or expense in
manufacturing was not related to any of Apple’s claimed
trade dress elements, the court held that the unregistered
trade dress was functional and, therefore, not protectable.
Id. at 994-95.
In contrast, the Seventh Circuit in Bodum found
the TrafFix test was satisfied because of the evidence
presented to the jury, specifically with regard to the
claimed trade dress elements. The Seventh Circuit,
among other pieces of evidence as discussed above, noted
the expert testimony that the CHAMBORD® design
is complex, and that this complexity makes it a more
expensive product to manufacture. Bodum, 927 F.3d at
494. Further testimony proved that using metal in the
CHAMBORD®’s frame and feet (two of the claimed
trade dress elements) is more expensive than plastic.
Id. The same goes for the metal domed lid, the handle
attachment, the rounded knob atop the plunger and the
C-shaped handle. Id. Contrary to Petitioner’s argument
that “there was no evidence in the record to show that
the claimed product configuration trade dress was not

12
relatively simple or inexpensive to manufacture,” all of the
elements Bodum claims trade dress in, when configured,
contribute to the difficulty and expense in manufacturing
the CHAMBORD® design. (Pet. App. 8-9); Id. at 494.
Petitioner claims that the Seventh Circuit “attempt[ed]
to distinguish Apple by finding that the materials used
to produce the Chambord conferred no cost advantage.”
(Pet. App. 8-9.) This is inaccurate; the Seventh Circuit’s
decision was consistent with the rationale used in Apple.
In Apple, “for the design elements that comprise Apple’s
unregistered trade dress, Apple point[ed] to no evidence
in the record to show they were not relatively simple or
inexpensive to manufacture.” Apple, 786 F.3d at 994.
Bodum, however, proved that the materials that make the
CHAMBORD® distinct are well within the scope of what
it defines as its unregistered trade dress, and do not confer
any cost or quality advantage in manufacturing. Bodum,
927 F.3d at 494 n.4. The Seventh Circuit and Apple applied
the same reasoning, but reached a different result; Bodum
was able to prove that the design elements comprising
its unregistered trade dress were not relatively simple
or inexpensive to manufacture, whereas Apple could not.
A factual distinction between two Lanham Act cases
does not mean that there is a circuit split that needs
to be resolved by this Court. Petitioner again is simply
trying to challenge the district and appellate courts’
factual findings, which is not a reason for this Court to
grant its petition. See Easley v. Cromartie, 532 U.S.
234, 242 (2001) (“We, like any reviewing court, will not
reverse a lower court’s finding of fact simply because we
‘would have decided the case differently.’ . . . Where an
intermediate court reviews, and affirms, a trial court’s
factual findings, this Court will not ‘lightly overturn’ the

13
concurrent findings of the lower courts.”). Thus, none of
the “certworthiness” factors are present to warrant this
Court’s supervision. Ross v. Moffit, 417 U.S. 600, 617 (1974)
(“This Court’s review . . . is discretionary and depends on
numerous factors other than the perceived correctness of
the judgment we are asked to review.”).
CONCLUSION
Petitioner has not established any compelling reason
for this Court to grant a writ of certiorari, and the Petition
should be denied for each of the foregoing reasons.
Respectfully submitted,
/s/				
Nicole J. Wing, Esq.
Counsel of Record
Vedder Price P.C.
222 North LaSalle Street
Chicago, Illinois 60601
(312) 609-7500
nwing@vedderprice.com
Counsel for Respondent

